4

t

APPENDIX
f

iv

No.

IN THE

Supreme Court of tfje OEntteb States;
Timothy Rote,
Petitioner,
v.
Max Zweizig,
Respondent.
On Appeal from the 9th Circuit Court of Appeals
No. 18-35991

PETITIONER’S APPENDIX

;

Timothy C. Rote
Pro Se
24790 SW Big Fir Rd.
West Linn, Oregon 97068
503.702.7225
timothy.rote@gmail.com

No.
TABLE OF CONTENTS
ECF

DATE

DESCRIPTION

VOL.

App Page #

No.
Order En Banc

la

Order and Opinion 9th
Circuit

2a-10a

Opinion and Order Trial
Court

1 la-30a

Opinion and Order Not
Compelling Arbitration

31a-48a

Answer, Affirmative
Defenses and MOTD

49a-92a

Second MOTD and Compel

93a-142a

New Jersey MOTD and
Compel Arbitration

143a-158a

New Jersey Action and
Order to Compel

159a-166a

Arbitrator Opinion 2011

167a-175a

Magistrate Papak Opinion on
2011 Arbitration

176a-202a

ii

No.
TABLE OF CONTENTS
ECF

DATE

DESCRIPTION

VOL.

App Page #

No.
Employment Agreement

203a-212a

FRCP 59 Motion

213a-253a

Chapter 1 Blog Showing
Publication Date

256a-260a

Chapter 1 SVB Blog
Showing Publication Date

261a-262a

Jones Document

263a-267a

Kugler Document

268a-269a

Forensic Report #1

270a-296a

Appellant’s Opening Brief to
the 9th Circuit

297a-373a

Arbitration NDT and Rote
Amended Statement of
Claims

374a-383a

Cross Examination of
Zweizig

384a-430a

iii

Case 3:15-cv-02401-HZ

Document 350

Filed 07/23/20

Page 1 of 1

1a

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUL 23 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MAX ZWEIZIG,
Plaintiff-Appellee,
v.

TIMOTHY C. ROTE,

No.

18-35991

D.C. No. 3:15-cv-02401-HZ
District of Oregon,
Portland
ORDER

Defendant-Appellant,
and
NORTHWEST DIRECT TELESERVICES,
INC.; et al.,
Defendants.
Before: WOLLMAN,* FERNANDEZ, and PAEZ, Circuit Judges.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P.35.
The petition for rehearing en banc is DENIED.

The Honorable Roger L. Wollman, United States Circuit Judge for the
U.S. Court of Appeals for the Eighth Circuit, sitting by designation.

Case 3:15-cv-02401-HZ

Document 349
2a

Filed 06/16/20

Page 1 of 9

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

JUN 16 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

MAX ZWEIZIG,

No.

Plaintiff-Appellee,

18-35991

D.C. No. 3:15-cv-02401-HZ

v.
MEMORANDUM*
TIMOTHY C. ROTE,
Defendant-Appellant,
and
NORTHWEST DIRECT
TELESERVICES, INC.; et al.
Defendants.

Appeal from the United States District Court
for the District of Oregon
Marco A. Hernandez, Chief District Judge, Presiding
Argued and Submitted March 3, 2020
Portland, Oregon

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Case 3:15-cv-02401-HZ

Document 349

Filed 06/16/20

Page 2 of 9

3a

Before: WOLLMAN/* FERNANDEZ, and PAEZ, Circuit Judges.
A jury found that Timothy C. Rote aided and abetted Northwest Direct
Teleservices, Inc. (NDT), in employment retaliation against Max Zweizig. Rote
appeals from the judgment entered against him on Zweizig’s claim. We affirm in
part, reserving the damages question raised on cross-appeal for certification to the
Oregon Supreme Court.
Rote was the president and chief executive officer of NDT, which hired
Zweizig as its IT Director in September 2001. NDT terminated Zweizig in
November 2003, after he had reported to Oregon’s Department of Justice that NDT
had been over-billing clients. Zweizig prevailed on a whistle-blower retaliation
claim against NDT, which was arbitrated pursuant to the parties’ employment
agreement. In 2015 and 2016, Rote published two voluminous blogs about the
arbitration proceedings between NDT and Zweizig. The blogs included
disparaging posts about Zwiezig.
Zweizig filed suit against NDT, its successors, and Rote in December 2015
in federal district court in Oregon. As relevant here, Zweizig alleged that the
defendants retaliated against him, in violation of Oregon Revised Statutes

The Honorable Roger L. Wollman, United States Circuit Judge for the
U.S. Court of Appeals for the Eighth Circuit, sitting by designation.
2

Case 3:15-cv-02401-HZ

Document 349
4a

Filed 06/16/20

Page 3 of 9

§ 659A.030(l)(f), and that Rote had aided and abetted the retaliation, in violation
of Oregon Revised Statutes § 659A.030(l)(g). The corporate defendants defaulted.
Rote asserted several counterclaims, which the district court struck upon
Zweizig’s motion under Oregon’s anti-SLAPP statute. See Or. Rev. Stat. § 31.150.
The district court otherwise denied the parties’ dispositive motions. The case
proceeded to trial, which resulted in a verdict in favor of Zweizig and an award of
$1 million in noneconomic damages. The district court denied Rote’s motion for a
new trial, but applied the $500,000 damages cap set forth in Oregon Revised
Statutes § 31.710(1).
1. Reviewing de novo, we conclude that the district court properly denied
Rote’s motion to compel arbitration because Rote was not a party to the
employment agreement between NDT and Zweizig. See Rajagopalan v.
NoteWorld' LLC, 718 F.3d 844, 847 (9th Cir. 2013) (per curiam) (standard of
review). The agreement states that “[e]mployee agrees to submit to mediation . . .
any dispute of the parties” and then sets forth a nonexclusive list of disputes,
concluding with “any other alleged violation of statutory, contractual or commonlaw rights of either party” (emphasis added). The arbitration clause thus applies
only to disputes between NDT and Zweizig, the parties to the employment
agreement, and does not permit Rote to compel arbitration. See Bates v. Andaluz
3

Case 3:15-cv-02401-HZ

Document 349

Filed 06/16/20

Page 4 of 9

5a

Waterbirth Ctr., 447 P.3d 510, 513-14 (Or. Ct. App. 2019 (concluding that
arbitration clause that referred only to two parties did not apply to third person).
Livingston v. Metropolitan Pediatrics, LLC, 227 P.3d 796, 805 (Or. Ct. App.
2010), is inapposite because the arbitration clause there was “broad enough to
encompass claims against nonsignatories and to support the interpretation that the
parties intended that [the company’s] employees and agents could avail themselves
of its terms.”
2. The district court also properly denied Rote’s motion to dismiss the
complaint. Chen v. Allstate Ins. Co., 819 F.3d 1136, 1141 (9th Cir. 2016) (de novo
standard of review). Rote argues that Zweizig’s claims should have been
dismissed as moot because Rote shut down his first blog, removed or redacted
Zweizig’s name from the blog posts, and thereafter republished the blog under a
new name. We conclude that Rote’s voluntary cessation of allegedly illegal
conduct did not render the claims against him moot. See Friends of the Earth, Inc.
v. LaidlawEnvtl. Servs. (TOC), Inc., 528 U.S. 167, 174 (2000).
3. Rote argues that the district court should have granted summary judgment
because Rote forewent renewing NDT’s corporate license and allowed the
company to administratively dissolve in February 2015, before he published many
of the disparaging posts. Whether NDT was operating in some capacity when Rote
4

Case 3:15-cv-02401-HZ

Document 349

Filed 06/16/20

Page 5 of 9

6a

published the blogs is a question of fact, and NDT’s administrative dissolution
does not foreclose Zweizig’s claims as a matter of law. Accordingly, the denial of
Rote’s motion for summary judgment is not reviewable. See Locricchio v. Legal
Servs. Corp., 833 F.2d 1352, 1359 (9th Cir. 1987) (“[T]he denial of a motion for
summary judgment is not reviewable on an appeal from a final judgment entered
after a full trial on the merits.”); see also Banuelos v. Constr. Laborers ’ Tr. Funds,
382 F.3d 897, 902 (9th Cir. 2004) (explaining that the general rule “does not apply
to those denials of summary judgment motions where the district court made an
error of law that, if not made, would have required the district court to grant the
motion”).
4. Rote argues that the district court erred in granting Zweizig’s motion to
strike counterclaims without allowing discovery. The district court accepted
Rote’s factual allegations as true, however, and Rote did not seek additional time
or permission to complete further discovery. Nor did Rote identify any
information that might have allowed him to show a probability that he would
prevail on his counterclaims. The district court thus did not abuse its discretion in
failing to order discovery sua sponte. See Handy v. Lane Cty., 385 P.3d 1016,
1028 (Or. 2016) (remanding to the court of appeals to “consider whether plaintiff

5

Case 3:15-cv-02401-HZ

Document 349
7a

Filed 06/16/20

Page 6 of 9

showed good cause for conducting further discovery and, if he did, whether the
trial court abused its discretion in denying his request”).
5. The district court also did not abuse its discretion in excluding certain
forensic reports. Rote did not submit evidence sufficient to support a finding that
the reports were what the forensic experts claimed them to be. The reports were
thus inadmissible for want of authentication. See Fed. R. Evid. 901 (a).
6. The district court did not plainly err in instructing the jury. See C.B. v.
City of Sonora, 769 F.3d 1005, 1016 (9th Cir. 2014) (en banc) (reviewing jury
instructions for plain error when complaining party failed to object). The causation
instruction was a correct statement of Oregon law. See Lacasse v. Owen, 373 P.3d
1178, 1183 (Or. Ct. App. 2016) (“To prove causation under ORS
659A.030(l)(f)—that is, that plaintiff was discharged by defendant ‘because’ of
his protected activity—plaintiff must prove that defendant’s unlawful motive was a
substantial factor in his termination, or, in other words, that he would have been
treated differently in the absence of the unlawful motive.”); see also Hardie v.
Legacy Health Sys., 6 P.3d 531, 538 (Or. Ct. App. 2000) (“The crux of the
standard, regardless of which phraseology is attached to it, is whether, in the
absence of the discriminatory motive, the employee would have been treated
differently.”). The district court did not plainly err in using the term “business
6

Case 3:15-cv-02401-HZ

Document 349

Filed 06/16/20

Page 7 of 9

8a

entities” in the aiding-and-abetting instruction. The court repeatedly admonished
the jury that the term “business entities” referred only to NDT. Rote jointly
submitted the mitigation instruction to the district court and thus cannot challenge
that instruction on appeal. Even if he could, Rote cites no law in support of his
position that his offer to remove Zweizig’s name from the blog posts vitiated the
aiding-and-abetting claim.
7. The district court did not abuse its discretion in submitting a general
verdict fonn to the jury. See Fed. R. Civ. P. 49(b); Cancellier v. Federated Dep ’t
Stores, 672 F.2d 1312, 1317 (9th Cir. 1982) (“Submission of special
interrogatories is a matter committed to the discretion of the district judge.”).
Considering the evidence presented at trial and the parties’ closing arguments, the
jury must have found that NDT existed when Rote published the disparaging posts
because the juiy answered yes to the question: “Has Plaintiff proved by a
preponderance of the evidence that Defendant Rote aided and abetted Northwest
Direct Teleservices in retaliating against Plaintiff?” Despite Rote’s argument to
the contrary, the administrative dissolution of NDT does not foreclose the
possibility that the company continued operating in some capacity.
8. Rote contends that plaintiffs opening statement and closing argument
were replete with lies and that the district court should have intervened when
7

Case 3:15-cv-02401-HZ

Document 349
9a

Filed 06/16/20

Page 8 of 9

plaintiff s counsel asked the jury to “send a message” with its verdict. We find no
plain error in the district court’s conclusion that, even assuming some remarks
were improper, “the alleged misconduct did not sufficiently permeate the entire
proceeding to warrant a new trial.” See Claiborne v. Blauser, 934 F.3d 885,
893-94 (9th Cir. 2019) (explaining that the denial of a motion for a new trial is
ordinarily reviewed for abuse of discretion, but when the complaining party did not
object to the misconduct, we review for plain error); Hemmings v. Tidyman ’s Inc.,
285 F.3d 1174, 1193 (9th Cir. 2002) (explaining that the appellant bears the burden
of showing prejudice resulting from an improper closing argument). The district
court was “in a superior position to gauge the prejudicial impact of counsel’s
conduct during the trial.” Hemmings, 285 F.3d at 1192 (quoting Anheuser-Busch
Inc. v. Nat. Beverage Distribs., 69 F.3d 337, 346 (9th Cir. 1995)). In light of the
strength of Zweizig’s case and the relevancy of the disputed statements to whether
Rote aided and abetted retaliation and whether Rote’s blog had an impact on
Zweizig’s life, we find no error in the determination that Rote was not prejudiced
by plaintiffs counsel’s statements.
AFFIRMED IN PART. The mandate shall not issue until we file a
disposition addressing the damages question in the cross-appeal, No. 18-36060,

8

Case 3:15-cv-02401-HZ

Document 349
10a

Filed 06/16/20

Page 9 of 9

which we have certified to the Oregon Supreme Court in a contemporaneously
filed order.

9

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 1 of 20

11a

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
PORTLAND DIVISION

MAX ZWEIZIG
No. 3:15-cv-02401 -HZ
Plaintiff,
OPINION & ORDER
v.
NORTHWEST DIRECT TELESERVICES;
INC., NORTHWEST DIRECT MARKETING
OF OREGON, INC,; TIMOTHY ROTE;
NORTHWEST DIRECT MARKETING
(DELAWARE), INC.; NORTHWEST DIRECT
OF IOWA, INC.; ROTE ENTERPRISES, LLC;
and NORTHWEST DIRECT MARKETING, INC.;
Defendants.

Joel Christiansen
VOGELE & CHRISTIANSEN
812 NW 17th Avenue
Portland, OR 97209
Attorney for Plaintiff

EXCERPT VI PAGE 1449

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 2 of 20

12a

Timothy Rote
24790 SW Big Fir Road
West Linn, OR 97068
Pro Se Defendant
HERNANDEZ, District Judge:
Plaintiff Max Zweizig brought this retaliation claim against Defendants Northwest Direct
Teleservices, Inc., Northwest Direct Marketing of Oregon, Inc., Timothy Rote, Northwest Direct
Marketing (Delaware), Inc., Northwest Direct of Iowa, Inc., Rote Enterprises, LLC, and
Northwest Direct Marketing, Inc. Currently pending before this Court are Defendant Rote’s
Objection to Plaintiff s Form of Judgment and Defendant Rote’s Motion to Vacate for Lack of
Jurisdiction, Alter or Amend Judgment, or For a New Trial pursuant to Fed. R. Civ. P. 59 and
60.1 The Court denies Defendant’s motion for a new trial but finds that Plaintiffs noneconomic
damages award should be capped pursuant to ORS 31.710.
BACKGROUND
Plaintiff is the former IT director of Defendant Northwest Direct Teleservices, Inc.
(“NDT”). Defendant Rote (“Defendant”) is the former executive of Defendant NDT and the
other business entities involved in this case. After their relationship deteriorated in 2003 and
Plaintiff was terminated, the parties began almost 15 years of litigation culminating in this
lawsuit.
Sometime after his termination, Plaintiff succeeded in arbitration on a claim for
whistleblower retaliation against Defendant NDT. Defendant subsequently created a blog to
1 Because judgment has not yet been entered in this case, the Court is only addressing
Defendant’s arguments to the extent that he requests a new trial. See Contempo Metal Furniture
Co. of California v. E. Texas Motor Freight Lines, Inc., 661 F.2d 761, 764 n.l (9th Cir. 1981)
(noting that "[t]he motion for new trial was timely under Fed. R. Civ. P. 59, even though filed
before entry of judgment"); 3D Wright & Miller Fed. Prac. & Procedure § 2812 (noting there is
nothing in Rule 59(b) “to prevent making a motion for a new trial before judgment has been
entered”). Once judgment is entered, Defendant is free to request relief from the judgment.

EXCERPT VI PAGE 1450

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 3 of 20

13a

write about his experience in the arbitration. At times, Defendant wrote about Plaintiff. After
discovering the blog, Plaintiff filed the present suit alleging that Defendant’s blog was an act of
retaliation. Specifically, Plaintiff contends that Defendant aided arid abetted his former employer,
Defendant NDT, in retaliating against him for his participation in the former arbitration where he
succeeded on his whistleblower claim.
Because they were unrepresented, all the business entities in this case have defaulted. The
claims against Defendant Rote, however, proceeded to a two-day jury trial on January 16 and 17,
2018. The jury returned a verdict for Plaintiff and awarded him $1,000,000 in noneconomic
damages.
STANDARDS
Under Rule 59, a district court has the discretion to grant a new trial “for any reason for
which a new trial has heretofore been granted in an action at law in federal court”. Fed.R.Civ.P.
59(a)(1)(A). Because “Rule 59 does not specify the grounds on which a motion for a new trial
may be granted,” courts are “bound by those grounds that have been historically recognized.”
Zhang v. Am. Gem Seafoods, Inc., 339 F.3d 1020, 1035 (9th Cir. 2003). The Ninth Circuit has
previously held that “[t]he trial court may grant a new trial only if the verdict is contrary to the
clear weight of the evidence, is based upon false or perjurious evidence, or to prevent a
miscarriage of justice.” Molski v. M.J. Cable, Inc., 481 F.3d 724, 729 (9th Cir. 2007) (citation
omitted). “[Ejrroneous jury instructions, as well as the failure to give adequate instructions, are
. . . bases for a new trial.” Murphy v. City ofLong Beach, 914 F.2d 183, 187 (9th Cir. 1990)
(citations omitted). The authority to grant a new trial is “confided almost entirely to the exercise
of discretion on the part of the trial court.” Allied Chem. Corp. v. Daiflon, Inc., 449 U.S. 33, 36
(1980).

EXCERPT VI PAGE 1451

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 4 of 20

14a

DISCUSSION
I.

Motion for a New Trial
Defendant makes various arguments in support of his motion for a new trial.2 Broadly, he

argues that a new trial is warranted because: (1) Plaintiffs counsel made improper statements
during closing argument; (2) the evidence was insufficient to support the verdict; (3) the Court
gave improper jury instructions; (4) the Court made improper evidentiary rulings; (5) Defendant
received information from Juror No. 5 that suggests damages were improperly calculated; and
(6) Defendant discovered new evidence.3 For the reasons that follow, the Court declines to grant
Defendant a new trial.
A. Plaintiffs Closing Argument
Defendant argues that the Court should grant a new trial because Plaintiffs counsel made
improper arguments in closing. In particular, Defendant contends that counsel’s arguments that
the jury should “send a message” with its damages award were inappropriate given that punitive

2 Defendant also argues that the Court lacks subject matter jurisdiction over this case because
Plaintiffs claims are subject to arbitration, otherwise fail to comply with the terms of Plaintiff s
employment agreement, and are barred by the “statute of limitations” period set forth in the
employment agreement. The Court already addressed Defendant’s arguments regarding
arbitration and the applicability of the terms of the employment agreement in its January 5, 2017
Opinion and Order on Defendant’s Motion to Dismiss for Lack of Subject Matter Jurisdiction.
ECF 96. For the reasons already described, the Court finds this case is not subject to the terms of
the employment agreement and jurisdiction over this case is proper.
3 Defendant also moves for a new trial on the grounds that he was “duped into a nominal 30 day
discovery period” by Plaintiffs counsel and was unable to complete the discovery in the time
given. The record, however, suggests that Defendant had ample time to conduct discovery. At a
scheduling conference held on October 14, 2016, the parties were given almost five months to
complete discovery. See Minutes of Proceedings, ECF 74. A two-month extension was granted
on March 13, 2017. See Minutes of Proceedings, ECF 107. Then a few weeks prior to the end of
the discovery period, Defendant filed a Motion for Extension of Discovery Deadlines, which the
Court subsequently denied. Def. Mot. Extension, ECF 110; Order, ECF 112.

EXCERPT VI PAGE 1452

Case 3:15-cv-02401-HZ

Document 228
15a

Filed 07/25/18

Page 5 of 20 •

damages had been excised from the case. Defendant, however, did not object to any of these
arguments during trial.4
Improper argument by counsel can be grounds for a new trial, but “generally, misconduct
by trial counsel [only] results in a new trial if the flavor of misconduct sufficiently permeate[s]
an entire proceeding to provide conviction that the jury was influenced by passion and prejudice
in reaching its verdict.” Hemmings v. Tidyman’s Inc., 285 F.3d 1174, 1192 (9th Cir. 2002)
(internal citations and quotations omitted). “The federal courts erect a ‘high threshold’ to claims
of improper closing arguments in civil cases raised for the first time after trial.” Id. at 1193
(internal citations omitted). “Where a party seeks a new trial based on arguments by opposing
counsel that were not objected to at trial, a new trial is available only in ‘extraordinary cases.’”
Aubertv. Robles, No. 1:10-CV-00565-MJS PC, 2014 WL 2979413, at *1-2 (E.D. Cal. July 1,
2014) (citing Hemmings, 285 F.3d at 1193).
During his closing argument, Plaintiffs counsel made the following statements:
There's words like "mental suffering," "emotional distress," "humiliation,"
"inconvenience," "interference with normal and usual activities," and "injury to
reputation." All of those are the case here. The words that aren't on the jury
instructions, but they feed into these words are "terror," "torment." The list, it—
yeah. You saw Mr. Zweizig testify. That's—that's obvious.
So what do we look at? I mean, how do you—how do you put a number on that?
What I’m going to encourage you to do is look at the community. What kind of
message do we want to send to the world to say this—not only is this wrong, but
it’s real. What Mr. Zweizig has gone through, it's not just a blog on the Internet.
We're not up here about a couple comments that hurt his feelings on Facebook.
This is a smear campaign, being stalked on the Internet. What do we do with that
fear?
So when you look at community, there's a couple contexts I want to talk to you
about. The first is the broad context. The community here is massive, and the
problem is great. And blogging, Googling, Facebooking, Twittering, Linkedln,
that's part of our world today. And what I argue to you is you need to be
4 Although Defendant Rote proceeded pro se, he was extremely sophisticated in litigating this
case as the case file shows.

EXCERPT VI PAGE 1453

Case 3:15-cv-02401-HZ

Document 228
16a

Filed 07/25/18

Page 6 of 20

responsible about how you use that stuff. And we need to send a message to that
big community that that's not acceptable. You can't do that. That really hurts
people.

And the other context is it's the small context. It's about the individual, the family,
what happens at home day to day. You know, how do we interact with ourselves?
How do we interact with the people we love? What kind of messages do we want
to send to our children or our neighbors, that small community? And that's really
important here, too.

And so the question is what do we, as a community—how do we value that? It's
been 14 years. Mr. Zweizig would like to be done. At the very least, he would like
your help to show him that what he's going through is real. So later on, if he needs
to, when he Googles his name, it's not just a bunch of lawsuits he's had to file, and
hopefully not for long, these things that are written out there, but there's
something that says this is real.
And then the bigger picture, it's not just Mr. Zweizig. It's so when our community
looks, when you click and say, what is this thing, like what is it when you write
terrible things about people on the Internet, that it's real.
When the technology companies in San Francisco sit down and decide, what is
our privacy policy or how are we going to deal with takedowns or whatever, it's
another drop in the bucket to say that human lives matter and these things actually
affect real people. So that's why I'm asking for $2 million. And I beg of you to
award every penny of that.
The Court finds that many of these statements could reasonably be interpreted as a request by
counsel that the jury hold Defendant liable rather than a request that the jury punish Defendant in
awarding damages. Further, the Court has reviewed the rest of the trial transcript and finds no
other instances where such comments were made. Thus, even if these comments could only be
interpreted as asking the jury to improperly punish Defendant with its award, the alleged
misconduct did not sufficiently permeate the entire proceeding to warrant a new trial. See Kehr v.
Smith Barney, Harris Upham & Co., Inc., 736 F.2d 1283, 1285-86 (1984) (affirming the district
court’s decision to deny the defendant’s motion for a new trial where isolated improper remarks

EXCERPT VI PAGE 1454

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 7 of 20

17a

were made principally during opening and closing argument, the jury’s damage award was not
excessive, and the defendant made no objection).
In addition, Plaintiff offered undisputed testimony in support of the noneconomic
damages award about the substantial impact that the blog had on his life and his emotional
health. Plaintiff testified that he felt “absolute distress” when he first saw the blog. He felt he was
being “stalked and terrorized at a pretty high level” and as though “somebody [had] taken [his]
identity.” Plaintiff described the blog as “a dark cloud that just follows [him] all the time” and
invades everything in his life. He fundamentally altered the way he interacts with the world as a
result of the blog, which uses both his name and his photo. In trying to keep a low profile,
Plaintiff said he was limited in his ability to interact and network with other IT professionals,
seek out guitar students, and put up webpages about his music. In his own words, Plaintiff has
had to “anonymize himself.” He also testified about how he watched the blog impact his family
as it also names Plaintiffs fiance. He said that the blog hangs over both of their heads. At times,
Plaintiff was emotional in describing how Defendant’s actions had impacted him. In light of this
testimony and Plaintiffs demeanor at trial, the Court cannot find that the jury was improperly
influenced by counsel’s statements in rendering its damages award. This is not one of those
“extraordinary cases” requiring a new trial.
B. Insufficiency of the Evidence
Defendant argues that there was insufficient evidence for the jury to find Defendant
liable. This Court disagrees. In this case, the jury’s verdict was not clearly against the weight of
the evidence. Plaintiff testified as to the mental and emotional distress he suffered as a result of
Defendant’s actions. The evidence reasonably shows that Defendant aided and abetted Plaintiffs
employer because, at the time that Defendant obtained rights from Defendant NDT to publish

EXCERPT VI PAGE 1455

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 8 of 20

18a

information about the arbitration online, it was not administratively dissolved. Comapre Ex. 546
(license agreement dated January 2, 2015) with Ex. 599 (showing Defendant NDT was not
administratively dissolved until April 3, 2015). Further, based on the contents of the blog, the
jury could conclude that Defendant’s motivation was retaliatory in nature. In other words, it
could have concluded that without Plaintiff s participation in a protected legal action against
Defendant NDT, Defendant would not have created the blog. Because the jury’s verdict was not
against the clear weight of the evidence in this case, the Court declines to grant Defendant a new
trial on this basis. See Roy v. Volkswagen of Am., Inc., 896 F.2d 1174, 1176 (9th Cir. 1990)
(“While the trial court may weigh the evidence and credibility of the witnesses, the court is not
justified in granting a new trial ‘merely because it might have come to a different result from that
reached by the jury.’”).
C. Improper Jury Instructions
Defendant moves for a new trial on the grounds that “several jury instructions were
flawed.” Def. Mot. 29, ECF 211. Defendant, however, did not make any objections to the
Court’s proposed jury instructions at trial, and at least one of the complained-of instructions was
identical to the instruction proposed by Defendant. Compare Instruction No. 13, ECF 189, with
Joint Proposed Instruction No. 24, ECF 166.
Federal Rule of Civil Procedure 51 requires parties to object to jury instructions on the
record, “stating distinctly the matter objected to and the grounds for the objection.” Fed. R. Civ.
P. 51 (c)(1). Where an objection has not been properly preserved, “[a] court may consider a plain
error in the instructions ... if the error affects substantial rights.” Id. at (d)(2); see also Chess v.
Dovey, 790 F.3d 961,970 (9th Cir. 2015) (“[Wjhen a litigant in a civil trail fails to object to a
jury instruction, we may review the challenged jury instruction for plain error.”); C.B. v. City of

EXCERPT VI PAGE 1456

Case 3:15-cv-02401-HZ

Document 228
19a

Filed 07/25/18

Page 9 of 20

Sonora, 769 F.3d 1005, 1016-19 (9th Cir. 2014) (In reviewing civil jury instructions for plain
error, the Ninth Circuit considers “whether (1) there was an error; (2) the error was obvious; and
(3) the error affected substantial rights.”)
The Court has reviewed the instructions and the applicable law and finds no error. For
example, Defendant contends that the Court erred in giving Instruction No. 10, arguing that it
misstates the “but-for” causation standard used in retaliation cases. But the instruction given
required the jury to find that, in the absence of Defendant’s unlawful motive, he would not have
retaliated against Plaintiff. See Instruction No. 10, ECF 189 (“A plaintiff is ‘subjected to an
adverse employment action because of his participation in the protected activity’ if he shows that
an unlawful motive was a substantial factor in his adverse employment action, or, in other words,
that the plaintiff would have been treated differently in the absence of the unlawful motive.”).
Moreover, the instruction given is consistent with the language used in recent Oregon appellate
decisions, which state that: “in the context of... retaliation claims, we have observed that, to
show causation, a ‘plaintiff must prove that defendant’s unlawful motive was a substantial factor
in his termination, or, in other words, that [the plaintiff] would have been treated differently in
the absence of the unlawful motive.’” Harper v. Mount Hood Comm. College, 283 Or. App. 207,
214 (2016) (citing LaCasse v. Owen, 278 Or. App. 24 (2016) (applying this test to a claim under
ORS 659A.030(1 )(f)); see also Or. Uniform Jury Instruction 59A.03 (defining “substantial
factor”).
D. Evidentiary Objections
Defendant also contends a new trial is warranted because the Court erred by: (1) not
allowing Defendant to submit the original expert reports and testimony from the arbitration into
evidence; (2) excluding Defendant’s Exhibits 541 and 543; and (3) not requiring Plaintiff to

EXCERPT VI PAGE 1457

Case 3:15-cv-02401-HZ

Document 228
20a

Filed 07/25/18

Page 10 of 20

disclose the identities of his employers. The Court finds that it did not err in these evidentiary
rulings and they did not result in an injustice to Defendant. At trial, Defendant was free to testify
about the arbitration, his motivation for writing the blog, and the evidence underlying the blog
posts.5 Without asking about the identity of Plaintiff s employers, Defendant was free to question
Plaintiff about his current and past employment in order to show an absence of noneconomic
damages. And Exhibits 541 and 543—both involving issues between Defendant and Plaintiffs
counsel in unrelated matters—were excluded because they are irrelevant to the legal claims in
this case.
E. Post-Trial Contact with Juror 5
Defendant contends that he came into contact with Juror No. 5 after the trial. According
to Defendant, Juror No. 5 suggested that the jury intended to punish Defendant with its verdict.
“A juror’s observations may not be used as grounds to grant a new trial absent exceptional
circumstances.” U.S. v. 4.0 Acres of Land, 175 F.3d 1133, 1140 (1999); see also Longfellow v.
Jackson Cly, No. CV 06-3043-PA, 2007 WL 682455, at *1 (“I will not consider evidence about
what a juror allegedly said to an attorney, after the jury was discharged, regarding the method the
jury used to compute damages or the reasons underlying the verdict. A juror may not testify
about matters intrinsic to the verdict.”). Indeed, FRE 606(b) “prohibits a juror from testifying
about the jury’s deliberations or how the jurors reached their conclusions unless ‘extraneous
prejudicial information was improperly brought to the jury’s attention.’” 4.0 Acres of Land, 175
F.3d at 1140. Here, Defendant does not provide any evidence that suggests that the juror was
5 Defendant also argues that this evidence would have allowed him to better articulate his
defense that the information contained within the blog was “true.” However, as the Court has
previously noted, Judge Brown confirmed the arbitration award, which included the arbitrator’s
credibility determinations and findings of fact, in 2012. See Nw. Direct Teleservices Inc. v. Max
Zweizig, No. 3:1 l-cv-00910-PK, ECF 46. Thus, the only purpose of this evidence here would
have been to relitigate the merits of the arbitration proceeding.

EXCERPT VI PAGE 1458

Case 3:15-cv-02401-HZ

Document 228
21a

Filed 07/25/18

Page 11 of 20

influenced by such extraneous information. Rather, Defendant only contends that the juror
provided him with information relevant to the jury’s deliberation. Accordingly, the Court
declines to grant a new trial on these grounds.
F. New Evidence
Defendant also argues that newly discovered evidence showing the number of visits to
Defendant’s blog and the timing of these visits warrants a new trial because it undermines
Plaintiffs testimony. A new trial may be granted because of newly discovered evidence where
“(1) the evidence was discovered after trial, (2) the exercise of due diligence would not have
resulted in the evidence being discovered at an earlier stage and (3) the newly discovered
evidence is of such magnitude that production of it earlier would likely have changed the
outcome of the case.” Defs. of Wildlife v. Bernal, 204 F.3d 920, 929 (9th Cir. 2000). “Newly
discovered evidence that would merely affect the weight and credibility of the evidence
ordinarily is insufficient for a new trial.” Green By and Through Green v. City ofEureka, 107
F.3d 16, 1997 WL 51471, at * 1 (9th Cir. 1997) (internal citations omitted). In support of this
argument, Defendant broadly states that this evidence was “not available or discovered until after
trial.” See Rote Deck

2-12, ECF 212. Defendant offers no other justification for why this

information was not available or discoverable with due diligence prior to trial. Accordingly, the
Court declines to grant a new trial on this basis.
II.

Objection to the Form of Judgment
Defendant objects to the form of Plaintiff s proposed judgment and argues that Oregon

Revised Statutes (“ORS”) § 31.710(2)(b), which caps noneconomic damages in certain cases to
$500,000, applies to this case. Plaintiff, citing two recent state trial court decisions, argues that
ORS 31.710 is inapplicable to employment claims. In the alternative, Plaintiff argues that the

EXCERPT VI PAGE 1459

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 12 of 20

22a

application of the statute to this case would violate the remedy clause in Article I, section 10 of
the Oregon Constitution. The Court agrees with Defendant and finds that the application of the
statute in this case is not unconstitutional.
A. Interpretation of ORS 31.710
The issue in this case is whether ORS 31.710 encompasses purely emotional injuries
arising out of employment claims. ORS 31.710(1) provides:
Except for claims subject to ORS 30.260 to 30.300 (Oregon Tort Claims Act) and
ORS Chapter 656 (Workers’ Compensation), in any civil action seeking damages
arising out of bodi ly injury, including emotional injury or distress, death or
property damage of any one person including claims for loss of care, comfort,
companionship and society and loss of consortium, the amount awarded for
noneconomic damages shall not exceed $500,000.
No Oregon appellate court appears to have directly addressed the applicability of ORS 31.710 to
employment claims arising out of purely emotional injury. In Tenold v. Weyerhaeuser Company,
however, the Oregon Court of Appeals applied this statute to employment claims seeking purely
noneconomic damages. See 127 Or.App. 511,518 (1994) (noting in passing that the language of
the statute “limits noneconomic damages to $500,000 in any civil action”’). But in that case, the
issue on appeal was the meaning of “action” and the constitutionality of ORS 31.710. Id. at 519—
21. The Court therefore did not directly address the meaning or scope of the statute. Further, the
claims at issue there were tort claims arising out of an employment relationship—malicious
prosecution, intentional infliction of emotional distress, and defamation—rather than the
statutory employment claims at issue here. Id. at 513.
In the absence of clear precedent, the Court turns to the three-part statutory interpretation
framework laid out in by the Oregon Supreme Court in State v. Gaines to determine the intent of
the legislature in drafting ORS 31.710. 346 Or. 160, 165 (2009); ORS § 174.020. First, the Court
examines the text and the context of the statute. 346 Or. at 171 (2009) (citing PGE v. Bureau of

EXCERPT VI PAGE 1460

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 13 of 20

23a

Labor and Indus., 317 Or. 606, 610-11 (1993)). Next, the parties are “free to proffer legislative
history to the court, and the court will consult it after examining the text and context, even if the
court does not perceive an ambiguity in the statute’s text, where that legislative history appears
useful to the court’s analysis.” Id. at 172. Finally, “[i]f the legislature’s intent remains unclear
after examining text, context, and legislative history, the court may resort to general maxims of
statutory construction to aid in resolving the remaining uncertainty.” Id.
The question in this case is what the Oregon legislature intended by capping
noneconomic damages “in any civil action seeking damages arising out of bodily injury,
including emotional injury or distress, death or property damage.” Plaintiff suggests that ORS
31.710 applies only to claims arising from bodily injury, death, and property damage. PI. Resp.
Am. Obj. 2-3, ECF 200. Because Plaintiffs claim arises out of an unlawful employment
practice, Plaintiff contends that the cap is inapplicable to this case. Defendant argues that both
the text of the statute and the ordinary meaning of the phrase “including” suggest that the phrase
“including emotional injury or distress” “should be read as a limited example of harm under a
broad category of bodily injury.” Def. Reply Am. Obj., 2-3, 9, ECF 202. Defendant further
contends that a narrower interpretation of the statute would frustrate the purpose of the statute.
Id. at 3.
The three Oregon trial courts to address this issue have come to different conclusions on
the meaning of the statute. In a decision issued just last year, Multnomah County Circuit Court
Judge Karin Immergut found that ‘“bodily injury’ . .. includes claims for purely emotional injury
under ORS 659A.030.” Pierce v. Daimler Trucks North America, LLC, Case No. 15CV24701, at
4 (Mult. Cty Cir. Ct, July 19, 2017); see also Rote Dec!. Ex. 11 at 4, ECF 203. In her decision,
Judge Immergut relied on the text and context of the statute, the statute’s clear exclusion for

EXCERPT VI PAGE 1461

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 14 of 20

24a

claims under the Oregon Tort Claims Act and the Oregon Workers’ Compensation Law, and the
application of this statute by the Court of Appeals in Tenold. Id. at 3. She further noted that the
goal of the legislature, as evidenced by the legislative history of the statute, was to reduce
insurance premiums associated with tort litigation. Id. at 4.
By contrast, both Multnomah County Circuit Court Judge Michael Greenlick and Lane
County Circuit Court Judge Marilyn E. Litzenberger offered narrower interpretations of ORS
31.710. Judge Greenlick found the cap was not intended to apply to (1) claims for purely
emotional injury or distress or (2) claims for employment discrimination. Loczi v. Daimler
Trucks North America, LLC, Case No. 14CV15365, at 3 (Mult. Cty Cir. Ct. Mar. 4, 2017); see
also Christiansen Deck Ex. 1 at 3-4, ECF 200. Specifically, he determined that the legislature
only intended the cap to apply to claims for emotional injury or distress where those damages
stemmed from bodily injury. Id. Similarly, Judge Litzenberger determined that the statute only
applies to three types of civil actions: “the categories of claims to which the cap applies include
claims arising out of bodily injury, death or property damage; and, by omission, not claims
arising out of employment.” McMillan v. Li Ning Sports USA, Inc., No 110708760, 2013 WL
9591371, at *3 (Lane Cty Cir. Ct. Dec. 18, 2013); see also Christiansen Deck Ex. 2.
Here, the Court finds Judge Immergut’s interpretation more persuasive. First, the text of
the statute itself supports Defendant’s contention that this statute applies to employment cases
seeking purely emotional distress damages. If the legislature had intended the statute to apply
only to claims arising out of bodily injury, death, or property damage, the legislature could have
so limited the scope of the statute. Instead, the legislature tethered the application of the cap to
the type of damages sought in civil actions: “any civil action seeking damages arising out of
bodily injury, including emotional injury or distress, death and property damages.” ORS §

EXCERPT VI PAGE 1462

Case 3:15-cv-02401-HZ

Document 228
25a

Filed 07/25/18

Page 15 of 20

31.710 (emphasis added). Thus, it is the type of damages—not the type of civil claim—the
legislature was ultimately concerned with.
Further, by its use of the word “including,” the statute clarifies that emotional injury or
distress is an example of bodily injury subject to the statute’s cap. See, e.g., State v. Kurtz, 350
Or. 65, 75 (2011) (“Typically, statutory terms such as ‘including’ and ‘including but not limited
to’ ... convey an intent that an accompanying list of examples be read in a nonexclusive
sense.”); State v. Walker, 356 Or. 4, 14 (2014) (noting that “includes” introduces an illustrative
list); “Include,” Black's Law Dictionary (1 Oth ed. 2014) (“The participle including typically
indicates a partial list.”) This does not evidence a requirement that the emotional injury stem
from a physical harm in some way.6 And the Court’s interpretation—that emotional distress is a
type of bodily injury—is not inconsistent with Oregon case law, which has recognized that
certain claims for purely emotional distress are considered claims for injury to one’s person
under Oregon law. See Rains v. Stayton Builders Mart, Inc., 289 Or. App. 672, 687-88 (2018)
(noting that an emotional harm is an “injury to person” or “bodily injury”).
Second, the purpose of the statute was to reduce liability insurance premiums in tort
actions. See Tenold, 127 Or. App. at 520 (“According to the legislative history, the purpose of
imposing a cap on noneconomic damages was to stabilize insurance premiums and to decrease
the costs associated with tort litigation.”); see also Rote Decl. Ex. 4 (Report from Joint Interim
Task Force on Liability Insurance) (“The Task Force voted to: Limit noneconomic damages to
$500,000.”). In the summary of the proposed tort reform bill, the legislature further signaled that
6 Indeed, “[i]t is hornbook law that the use of the world including indicates that the specified list
is illustrative, not exclusive.” See e.g. Puerto Rico Maritime Shipping Auth. v. ICC, 645 F.2d
1102, 1112 n.26 (D.C. Cir. 1981); see also Samanlar v. Yousuf, 560 U.S. 305, 317 (2010) (“It is
true that use of the word ‘include’ can signal that the list that follows is meant to be illustrative
rather than exhaustive.”) (citing 2A N. Singer & J. Singer, Sutherland Statutory Construction §
47.7, p. 305 (7th ed.2007) (“[T]he word ‘includes' is usually a term of enlargement, and not of
limitation.”)).

EXCERPT VI PAGE 1463

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 16 of 20

26a

the puipose of the cap was “to cap out the ‘non-economic’ portion of any award.” Rote Decl. Ex.
5 (emphasis added). Although the noneconomic damages cap was “included in a larger bill
aimed at tort reform generally, the noneconomic damages cap itself was labeled as a stand-alone
provision within the bill.” Vasquez v. Double Press Mfg., Inc. 288 Or. App. 503, 519 (2017)
(citing Or. Laws 1987, ch. 774 § 6). By adopting a broader understanding of “damages arising
out of bodily injury” to include damages arising out of purely emotional injury, the Court’s
interpretation better fulfills the legislature’s goal. By contrast, a narrower reading—requiring any
emotional injury to be connected to a physical harm—would result in the exclusion of certain
tort claims, such as those for Intentional or Negligent Infliction of Emotional Distress, from the
damages cap. Such an approach would therefore be inconsistent with the legislature’s goal of
reducing the cost of tort litigation.
In light of the broad language of the statute and the legislative history, the Court finds
that the legislature intended ORS 31.710 to apply to employment actions where the damages
sought are purely emotional in nature. Accordingly, Plaintiffs damages in this case are subject to
Oregon’s $500,000 noneconomic damages cap.
B. Constitutionality of ORS 31.710
Plaintiff also argues that, as applied to his case, ORS 31.710 is unconstitutional because a
reduction in his damages by 50% “would not leave Plaintiff with a substantial remedy and would
therefore violate the remedy clause of Article I, section 10 of the Oregon Constitution.” PI. SurReply Am. Obj, ECF 210. Defendant argues that the $500,000 Plaintiff would receive after the
application of the damages cap is substantial and passes constitutional muster. Def. Reply Am.
Obj. 5. The Court agrees with Defendant.

EXCERPT VI PAGE 1464

Case 3:15-cv-02401-HZ

Document 228

Filed 07/25/18

Page 17 of 20

27a

In Vasquez v. Double Press Manufacturing, Inc., the Oregon Court of Appeals addressed,
for the first time after the Supreme Court’s decision in Horton v. Oregon Health & Science
University, 359 Or. 168 (2016), a challenge to the constitutionality of ORS 31.710 under Article
I, section 10 of the Oregon Constitution. 288 Or. App. 503 (2017). Article I, section 10 provides:
“No court shall be secret, but justice shall be administered, openly and without purchase,
completely and without delay, and every man shall have remedy by due course of law for injury
/

done him in his person, property, or reputation.” Because ORS 31.710 does not deny a remedy
completely, the Court of Appeals held that the statute is only unconstitutional if the remedy
provided is not “substantial.” Id. (citing Horton, 359 Or. at 219). “Whether a remedy is
‘substantial’ is a question that [the court] can answer only on a case-by-case basis, because a
capped remedy could provide complete relief for many claimants.” Id. But “a remedy that is
only a paltry fraction of the damages that the plaintiff sustained will unlikely be sufficient.” Id.
(citation omitted).
In Vasquez, the Court of Appeals determined that the application of the cap “would leave
plaintiff with a remedy that is only a ‘paltry fraction’ of the damages that he sustained and would
otherwise recover.” Id. at 525-26. There, the court began by noting that, under the common-law
model, the plaintiff would have been entitled to the entire amount of the noneconomic damages,
and that the hard cap placed by the legislature in 1987—without any mechanism for
adjustment—was a dramatic departure from the remedy the common law provided. Id. at 524—
25. It went on to find that the legislature’s concern with controlling the rising cost of liability
insurance could not “bear the weight of the dramatic reduction in noneconomic damages that the
statute requires for the most grievously injured plaintiffs.” Id. at 525. The plaintiff in that case—
having been “essentially cut... in half at the base of his spine, leaving him permanently

EXCERPT VI PAGE 1465

Case 3:15-cv-02401-HZ

Document 228
28a

Filed 07/25/18

Page 18 of 20

paraplegic”—was such a grievously injured plaintiff. Id. And the application of the damages cap
would have left Plaintiff with $1,839,090 of the $6,199,090 he would have received for his
significant injuries without the cap. Id.
Similarly, in Rains v. Slayton Builders Mart, lnc.t the Oregon Court of Appeals again
found that a reduction in damages under the cap was unconstitutional. 289 Or. App. 672, 691-92
(2018). There, the plaintiff “fell almost 16 feet to the ground when a defective wood board broke
at his job site.” Id. at 675. The fall rendered him a paraplegic. Id. The plaintiff and his wife
subsequently brought strict products liability and loss of consortium claims in an action against
the retailer and manufacturer of the board. Id. Applying the holding in Vasguez, the Court of
Appeals concluded that reducing the plaintiffs noneconomic damages from $2,343,750 to
$500,000 would be unconstitutional given the nature of plaintiffs’ injuries. Id. at 691. The Court
similarly found that a reduction in the plaintiffs wife’s award for loss of consortium from
$759,375 to $500,000 was a “bare reduction in her noneconomic damages without any
identifiable statutory quid pro quo or constitutional principle that the cap takes into
consideration.” Id. at 691 (citing Vasquez, 288 Or. App. at 526); see also id. at 692 (“[W]e do
not see a principled reason to conclude that reducing Mitzi’s noneconomic damages award by
$259,375 in the circumstances of this case leaves her with a ‘substantial’ remedy.”).
This case, however, is distinguishable from Rains and Vasquez. Though, at the time that
ORS 31.710 was passed, the common-law remedial scheme would have provided Plaintiff with
his full damages award, Plaintiff is not the type of “grievously injured” plaintiff that the Oregon
Court of Appeals was concerned with in the decisions described above. The plaintiffs in Vasquez
and Rains both suffered debilitating physical injuries as a result of serious workplace accidents.
Similarly, the plaintiffs wife in Rains suffered a grievous emotional injury and was accordingly

EXCERPT VI PAGE 1466

Case 3:15-cv-02401-HZ

Document 228
29a

Filed 07/25/18

Page 19 of 20

compensated for a lifetime loss of consortium as the result of her husband’s paraplegia.
Accordingly, the remedies these individuals would have received had the cap been imposed were
not “substantial” remedies. Certainly, Plaintiff has suffered significant emotional distress over
the past few years as a result of Defendant’s actions. But when viewed in light of the case law
described above and the circumstances of this case, the Court finds that a $500,000 noneconomic
damages award is still a substantial remedy within the meaning of Article I, section 10 of the
Oregon Constitution.
III.

Attorney’s Fees
Defendant also objects to the Plaintiffs request for attorney’s fees. He argues that the

issue of attorney’s fees was decided in the 2010 arbitration decision applying the terms of the
employment agreement to the parties’ litigation. The Court finds this objection without merit.
First, as the Court previously noted, the terms of the employment agreement are not applicable to
this case. Opinion & Order, ECF 96 at 4-7; Order, ECF 133 at 8 n.5. Additionally, Plaintiff is
permitted to recover attorney’s fees for successful claims brought under ORS 659A.030. See
ORS 659A.885( 1) (“In any action under this subsection, the court may allow the prevailing party
costs and reasonable attorney fees at trial and on appeal.”).
Ill
III
III
III
III
III
III

EXCERPT VI PAGE 1467

Case 3:15-cv-02401-HZ

Document 228
30a

Filed 07/25/18

Page 20 of 20

CONCLUSION
The Court DENIES Defendant’s Motion to Set Aside Judgment [211], However, the
Court finds that Plaintiff s award for noneconomic damages is capped at $500,000 pursuant to
ORS 31.710(1). The parties shall submit a joint proposed form of judgment within fourteen days
of this Order.
IT IS SO ORDERED.
Dated this

as
United States District Judge

EXCERPT VI PAGE 1468

Case 3:15-cv-02401-HZ

Document 96
31a

Filed 01/05/17

Page 1 of 18

C

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

MAX ZWEIZIG,
No. 3:15-cv-02401-HZ
Plaintiff/
Counter Defendant,
OPINION & ORDER
v.
NORTHWEST DIRECT TELESERVICES, INC.;
NORTHWEST DIRECT MARKETING OF
OREGON, INC.; TIMOTHY ROTE;
NORTHWEST DIRECT MARKETING
(DELAWARE), INC.; NORTHWEST DIRECT
OF IOWA, INC.; ROTE ENTERPRISES, LLC;
NORTHWEST DIRECT MARKETING, INC.;
DOES 1-5.
Defendants/Counter Claimants.

Joel W. Christiansen
812 NW 17th Avenue
Portland, OR 97209
Attorney for Plaintiff/Counter Defendant

1 - OPINION & ORDER

Excerpt I page 117

Case 3:15-cv-02401-HZ

Document 96

Filed 01/05/17

Page 2 of 18

32a

Timothy Rote
24790 SW Big Fir Road
West Linn, OR 97068
Pro Se Defendant/Counter Claimant

HERNANDEZ, District Judge:
Pro se Defendant/Counter Claimant Timothy Rote brings three motions: (1) Motion to
Dismiss for Lack of Subject Matter Jurisdiction; (2) Motion for Judicial Notice; and (3) Motion
for Leave to Amend Counterclaims. The Court denies all of Defendant’s motions.
BACKGROUND
The parties’ litigation history in this matter was set forth by this Court in a prior Opinion
& Order:
Plaintiff Max Zweizig alleges that he was terminated by Defendant Northwest Direct
Teleservices, Inc. (NDT), a corporate entity owned by Timothy Rote, after Zweizig
reported to the Oregon Department of Justice and the Lane County District Attorney that
NDT had engaged in criminal activity. Compl.
17-18, ECF 1. Zweizig also alleges that
Rote and NDT took other adverse actions against Zweizig, including publishing
statements to third parties and the general public accusing Zweizig of destroying data and
engaging in other criminal and civil misconduct during his employment at NDT. Id. at ^
18.
The parties engaged in arbitration related to this employment dispute for several years
and, ultimately, an arbitrator found in Zweizig’s favor and awarded damages to Zweizig.
Id. at U 21. The arbitration award was reduced to a judgment; however, NDT has failed to
satisfy that judgment. Id. at 22. On March 11, 2014, Zweizig filed a lawsuit against
NDT, Rote, and related corporate entities, alleging that the defendants violated the
Uniform Fraudulent Transfer Act and engaged in other fraudulent activity to defeat
Zweizig’s ability to enforce his whistleblower retaliation judgment. Id. at 23.
On or about February 27, 2015, Defendants created a website, “Sitting Duck Portland,”
which describes the arbitration between Rote’s companies and Zweizig. Id. at ^ 25.
According to Zweizig, the Sitting Duck Portland website disparages Zweizig, his fiancee,
and his counsel. Id. at 27.
On December 24, 2015, Zweizig filed the present employment discrimination action
against Rote, a citizen of Oregon; six corporate entities allegedly owned by Rote,
including NDT; and five Doe defendants. Zweizig alleges that the content of the Sitting
Duck Portland website constitutes a series of ongoing adverse employment actions
2 - OPINION & ORDER

Excerpt I page 118

Case 3:15-cv-02401-HZ

Document 96
33a

Filed 01/05/17

Page 3 of 18

targeted at Zweizig due to his participation in protected conduct. Id. at ^ 28. Zweizig
brings claims of whistleblower discrimination and retaliation, retaliation for opposing
unlawful conduct, and aiding and abetting. Id. at ffij 31-57.
Zweizig v. Nw, Direct Teleservices. Inc.. No. 3:15-CV-02401-HZ, 2016 WL 755626, at *1 (D.
Or. Feb. 25, 2016).
On March 10, 2016, Defendant filed a second amended answer to Plaintiffs complaint.
Second Am. Answer, ECF 29. In this second amended answer, Defendant asserted seven
counterclaims. Icf On August 17, 2016, this Court granted Plaintiffs motion to dismiss
Defendant’s counterclaims. Opinion & Order (O&O), ECF 61.
DISCUSSION
I.

Motion to Dismiss for Lack of Subject Matter Jurisdiction
A. Plaintiffs Claims Against Defendant
Defendant seeks to dismiss all of Plaintiff s claims. However, one of those claims (which

has two counts) is brought against the Corporate Defendants only. As this Court has previously
informed Defendant, he may not represent the Corporate Defendants. See United States v. High
Country Broad. Co., 3 F.3d 1244, 1245 (9th Cir. 1993) (stating that a corporation may appear in
federal court only through licensed counsel); see also 28 U.S.C. § 1654. Thus, the Court only
considers Defendant’s motion to dismiss the two claims Plaintiff brings against Defendant in his
individual capacity: (1) Retaliation for Opposing Unlawful Conduct in Violation of Oregon
Revised Statute § (O.R.S.) 659A.030(1 )(f); and (2) Aiding and Abetting in Violation of O.R.S.
659A.030(l)(g). Defendant contends that these claims should be dismissed because they are
subject to arbitration. The Court denies Defendant’s motion to dismiss.
B. Standard
The Federal Arbitration Act, 9 U.S.C. §§ 1-16 (“FAA”), removes the Court's subject
*

matter jurisdiction to hear a claim when there is a valid, enforceable arbitration clause.
3 - OPINION & ORDER

Excerpt I page 119

Case 3:15-cv-02401-HZ

Document 96

Filed 01/05/17

Page 4 of 18

34a

Therefore, Defendant’s motion to dismiss is “one means to raise its arbitration defense. In effect,
[Defendants’] motion is a petition to this court within the meaning of § 4 of the FAA.” Rogue v.
Applied Materials, Inc., No. 03:03-cv-1564-ST, 2004 WL 1212110, at *4 (D. Or. Feb. 20,
2004).
The FAA limits the Court's role to determining whether a valid arbitration agreement
exists, and whether the agreement encompasses the disputes at issue. Nguven v. Barnes & Noble
Inc., 763 F.3d 1171, 1175 (9th Cir. 2014). Written agreements to arbitrate arising out of
transactions involving interstate commerce “shall be valid, irrevocable, and enforceable, save
upon such grounds as exist at law or in equity for the revocation of any contract.” 9 U.S.C. § 2. If
the issue is referable to arbitration under the agreement, then the Court must direct the issue to
arbitration and stay the trial. 9 U.S.C. § 3. An agreement to arbitrate is to be “rigorously
enforcerd.1” Dean Witter Reynolds. Inc, v. Bvrd. 470 U.S. 213, 221 (1985).
C. Arbitration Agreement
Defendant contends that this Court lacks subject matter jurisdiction over Plaintiffs
claims because the claims are encompassed by a 2001 Employment Agreement (“Agreement”)
entered into by Plaintiff and Defendant Northwest Direct Teleservices, Inc. (“NDT”) that
mandates the use of arbitration to resolve disputes arising out of or related to Plaintiffs
employment with NDT. See Rote Deck Ex. A, ECF 79-1.1 Defendant’s argument fails for
several reasons.

Defendant includes the Agreement as an attachment to the “Declaration of Timothy Rote on Defendant
Rote’s Motion for Summary Judgment.” ECF 79. The footer of that document states “Declaration of
Timothy C. Rote in Opposition to Plaintiffs Motion to Dismiss Counterclaims.” Id. The Court assumes
that Defendant erred in the labeling of his declaration and the footer, and the Court construes the exhibit
as corresponding to Defendant’s Motion to Dismiss for Lack of Subject Matter Jurisdiction. However,
Defendant is warned to be more careful in the future in order to avoid confusion.
4 - OPINION & ORDER

Excerpt I page 120

Case 3:15-cv-02401-HZ

Document 96
35a

Filed 01/05/17

Page 5 of 18

Defendant is not a signatory to the Agreement, although he did sign the Agreement on
behalf of NDT. Defendant fails to explain how claims against him, as a non-signatory individual,
fall within the Agreement. See United Steelworkers v. Warrior & Gulf Navigation Co.. 363 U.S.
574, 582 (1960) (“[Arbitration is a matter of contract and a party cannot be required to submit to
arbitration any dispute which he has not agreed so to submit.”); see also Raiagopalan v. Note
World, LLC, 718 F.3d 844, 847 (9th Cir. 2013) (“We have never previously allowed a non­
signatory defendant to invoke equitable estoppel against a signatory plaintiff, and we decline to
expand the doctrine here.”); Murphy v. DirecTV. Inc.. 724 F.3d 1218, 1229 (9th Cir. 2013)
(“generally only signatories to an arbitration agreement are obligated to submit to binding
arbitration”). Where other circuits have granted motions to compel arbitration on behalf of non­
signatory defendants against signatory plaintiffs, it was “essential in all of these cases that the
subject matter of the dispute was intertwined with the contract providing for arbitration.”
Raiagopalan v. NoteWorld. LLC. 718 F.3d 844, 847 (9th Cir. 2013) (quoting Mundi v. Union
Sec. Life Ins. Co., 555 F.3d 1042, 1045 (9th Cir. 2009)). Here, the subject matter of the
dispute—the content and allegedly disparaging nature of Defendant’s blog posts—is not
intertwined with the parties’ 2001 Agreement. For this reason, Defendant’s argument fails.
Even if Defendant could show that the Agreement applies to the claims against him,
Defendant’s attempt to dismiss this case due to the Agreement’s arbitration provision fails
because he waived his right to compel arbitration. See Van Ness Townhouses v. Mar Indus.
Corp., 862 F.2d 754, 758 (9th Cir. 1988) (finding waiver of right to arbitration); Antuna v. Am.
W. Homes, Inc., 232 F. App'x 679 (9th Cir. 2007) (unpublished) (same). “A party seeking to
prove waiver of a right to arbitration must demonstrate: (1) knowledge of an existing right to
compel arbitration; (2) acts inconsistent with that existing right; and (3) prejudice to the party

5 - OPINION & ORDER

Excerpt I page 121

Case 3:15-cv-02401-HZ

Document 96
36a

Filed 01/05/17

Page 6 of 18

opposing arbitration resulting from such inconsistent acts.” Fisher v. A.G. Becker Paribas Inc..
791 F.2d 691,694 (9th Cir. 1986).
Under the first prong of Fisher, the Court finds that Defendant has known of his right to
compel arbitration since he signed the Agreement on behalf of NDT in ,2001. In addition,
Defendant declares that he used the Agreement to compel arbitration with Plaintiff in 2006. Rote
Decl.

3-4, ECF 79.
As to the second Fisher prong, Defendant has acted inconsistently with the right to

arbitrate by actively defending himself in the present case and filing counterclaims against
Plaintiff. As noted above, this case was filed against Defendant in December of 2015 and
Defendant first filed an answer in January of 2015. Since that time, Defendant has submitted
multiple filings in this case, including a motion to join counterclaim defendants and responses to
Plaintiffs motions to strike and dismiss. Defendant has also participated in several hearings
before the Court. Now, for the first time, Defendant asserts that Plaintiffs claims are subject to
arbitration. Such behavior is inconsistent with a right to arbitrate. See, e.g., Martin v. Yasuda.
829 F.3d 1118, 1126 (9th Cir. 2016) (finding defendants’ behavior inconsistent with a right to
arbitrate when they “did not even note their right to arbitration until almost a year into the
litigation”); Van Ness Townhouses. 862 F.2d at 759 (a party’s “extended silence and muchdelayed demand for arbitration indicates a conscious decision to continue to seek judicial
judgment on the merits of the arbitrable claims”) (internal quotation marks omitted).
Finally, the third Fisher prong is satisfied because Plaintiff would be prejudiced if this
case were dismissed in favor of arbitration. Similar to Defendant, Plaintiff has vigorously
litigated this case for a year. The Court has set a 2017 trial date. See Trial Mgmt. Order, ECF 76.

6 - OPINION & ORDER

Excerpt I page 122

Case 3:15-cv-02401-HZ

Document 96
37a

Filed 01/05/17

Page 7 of 18

To delay this case any further would cause prejudice. Therefore, the Court finds that Defendant
waived any right to arbitration.
D. Ripeness and Mootness
Defendant argues that any claims Plaintiff has with respect to Defendant’s blog are based
on a speculative future adverse employment action. Thus, Defendant argues that the claims are
not ripe and should be dismissed. He also argues the claims are moot because he has removed
and redacted Plaintiffs name from indexable material on the blog.
Defendant’s arguments fail. At this stage of the proceeding, the Court must view all facts
in the light most favorable to Plaintiff. According to Plaintiff, as recently as September 12, 2016,
Defendant wrote a blog post that falsely implied Plaintiff had engaged in wrongdoing.
Christiansen Dec. 4, Ex. 2, ECF 84-2. Thus, Plaintiffs claims are ripe and are not moot.
II.

Motion for Judicial Notice
Defendant asks the Court to take judicial notice of two exhibits: (1) documents provided

by the U.S. Marshals to Defendant regarding a telephone call that Plaintiffs counsel made to
Judge Jones; and (2) a declaration by Defendant’s brother, Gregory Rote, refuting statements
made in a declaration of Plaintiff s counsel. Defendant also asks the Court to take judicial notice
of several paragraphs of argument regarding factual disputes in this case.
Under Federal Rule of Evidence 201(b), the Court may take judicial notice of facts that
are “not subject to reasonable dispute” because they “can be accurately and readily determined
from sources whose accuracy cannot reasonably be questioned.” A court may not take judicial
notice of a matter that is in dispute. Lee v. City of Los Angeles. 250 F.3d 668, 690 (9th Cir.
2001). A party requesting judicial notice bears the burden of persuading the trial judge that the
fact is a proper matter for judicial notice. In re Tyrone F. Conner Coro.. Inc.. 140 B.R. 771, 781

7 - OPINION & ORDER

Excerpt I page 123

Case 3:15-cv-02401-HZ

Document 96
38a

Filed 01/05/17

Page 8 of 18

(Bankr. E.D. Cal. 1992) (citing In re Blumer. 95 B.R. 143, 146 (B.A.P. 9th Cir. 1988)). Neither
the documents nor Defendant’s arguments are sources “whose accuracy cannot reasonably be
questioned.” Therefore, the Court denies Defendant’s request for judicial notice.
However, the Court considers the documents under the doctrine of incorporation by
reference. A document need not be attached to the complaint to be incorporated into it by
reference if the plaintiff “refers extensively to the document or the document forms the basis of
the plaintiffs claim.” United States v. Ritchie. 342 F.3d 903, 908 (9th Cir. 2003). A document is
incorporated by reference if (1) the complaint refers to it; (2) the document is central to the
plaintiffs claim; and (3) no party questions the document's authenticity. Marder v. Lopez. 450
F.3d 445, 448 (9th Cir. 2006). The Court may treat such a document as part of the complaint and
assume its contents are true for purposes of determining whether a claim has been sufficiently
alleged. Id.; see also Ritchie. 342 F.3d 908 (district court may consider materials incorporated by
reference without converting the motion to dismiss into a motion for summary judgment).
Here, Plaintiff does not object to Defendant’s request for the Court to consider his
attachments, nor does Plaintiff question the documents’ authenticity. Further, the documents are
referred to in and are central to Defendant’s proposed counterclaims. Thus, the Court
incorporates the documents by reference into Defendant’s counterclaims and assumes that their
contents are true for purposes of Defendant’s motion for leave to amend.
III.

Motion for Leave to Amend
Defendant moves for leave to file a Third Amended Answer containing four

counterclaims and several affirmative defenses. Defendant seeks to include counterclaims of
defamation, abuse of process, intentional infliction of emotional distress, and aiding and

8 - OPINION & ORDER

Excerpt I page 124

Case 3:15-cv-02401-HZ

Document 96

Filed 01/05/17

Page 9 of 18

39a

abetting.2 Because Defendant’s proposed counterclaims are futile3, the Court denies his motion
to add those claims. Defendant is instructed to remove all counterclaims before submitting his
Third Amended Answer.
A. Standard
Under Rule 15(a)(2), after a responsive pleading is filed, “a party may amend its pleading
with the opposing party's written consent or the court's leave.” Fed. R. Civ. P. 15(a)(2). Rule
15(a)(2) prescribes that “[t]he court should freely give leave when justice so requires.” Id. ‘“This
policy is to be applied with extreme liberality.’” C.F. ex rel Farnan v. Capistrano Unified Sch.
Dist., 654 F.3d 975, 985 (9th Cir. 2011) (quoting Eminence Capital. LLC v. Aspeon. Inc.. 316
F.3d 1048, 1051 (9th Cir. 2003)). However, “the liberality in granting leave to amend is subject
to several limitations. Leave need not be granted where the amendment of the complaint would
cause the opposing party undue prejudice, is sought in bad faith, constitutes an exercise in
futility, or creates undue delay.” Ascon Props.. Inc, v. Mobil Oil Co.. 866 F.2d 1149, 1160 (9th
Cir. 1989) (citations omitted).
B. Alleged Violation of Stipulated Protective Order
In Plaintiff s Response to Defendant’s Motion for Leave to Amend, Plaintiff contends
that Defendant attached the deposition of Plaintiff from another case in this District, Max
Zweizig v. Timothy C. Rote, et ah. 3:14-cv-00406-YY, in violation of the Stipulated Protective
Order from that case. In Defendant’s Reply, he submits a copy of an email from himself to
Plaintiffs counsel in which he challenges the designation of Plaintiff s testimony as confidential.

2 In Defendant’s Reply, he abandons his effort to add an additional counterclaim for “civil extortion.”
Rote Reply at 9, ECF 91.
3 In addition, to the extent Defendant seeks to bring these counterclaims against “Plaintiff and Plaintiff
Counsel,” the Court reiterates its prior ruling denying Plaintiffs motion to join parties as counterclaim
defendants. O&O, Feb. 25, 2016, ECF 25. The only potential counterclaim defendant in this case is
Plaintiff.
9 - OPINION & ORDER

Excerpt I page 125

Case 3:15-cv-02401-HZ

Document 96

Filed 01/05/17

Page 10 of 18

40a

According to Defendant, because Plaintiffs counsel never responded to the email, the deposition
testimony is no longer subject to the Protective Order.
The Protective Order provides:
In the event that any party to this litigation disagrees at any point in these proceedings
with any designation made under this Protective Order, the parties shall first try to
resolve such dispute in good faith on an informal basis. If plaintiff provides a written
objection to the designating party as to the designation of material as confidential, the
designating party shall submit a motion to the court within twenty-one (21) days of such
objection, or the material will not be subject to this order. If a motion is timely filed by
the designating party, the designated document or information shall continue to be treated
as “Confidential” subject to the provisions of this Protective Order, pending a ruling by
the Court.
Marshall Decl. Ex. 1 (“Protective Order”) f 4, ECF 90-1 (emphasis added). As emphasized
above, the Protective Order as entered provides a mechanism for Plaintiff to object to the
designation of material as confidential. It does not, however, provide the same mechanism to
Defendant. The Court assumes this may have been a scrivener’s error; however, the parties will
have to resolve that potential error in the case in which the Protective Order was entered. As
applied to this case, Defendant is unable to refute Plaintiffs contention that he violated the
Protective Order by attaching Plaintiffs deposition to his Proposed Third Amended Answer.
Accordingly, the Court strikes the exhibit and removes it from the record. Until the parties
resolve the issue of the Protective Order in case 3:14-00406- YY, Defendant is ordered not to
include the deposition transcript or its contents in further filings in this case.
C. Background
Defendant’s counterclaims are based on alleged behavior by Plaintiff or his counsel in
response to a blog post by Defendant that referenced U.S. District Court Judge Robert E. Jones.
Defendant alleges that on November 12, 2015, Plaintiffs counsel Joel Christiansen and Linda
Marshall contacted Judge Jones’ chambers and alleged that Defendant intended to harm or posed

10 - OPINION & ORDER

Excerpt I page 126

Case 3:15-cv-02401-HZ

Document 96
41a

Filed 01/05/17

Page 11 of 18

a threat to Judge Jones at his Lifetime Achievement Award ceremony. Proposed Third Am.
Answer 32, ECF 86-2. Plaintiffs counsel also accused Defendant of stalking his ex-wife with a
handgun and having been previously arrested. Id. at U 33. Plaintiffs counsel also alleged that
Defendant had been engaged in fraud and that “the U.S. District Court has a history of finding
against Rote.” Id. at U 33.
D. Defamation
Defendant contends that Plaintiff defamed him when Plaintiffs counsel contacted Judge
Jones’ deputy. The elements of a claim for defamation are: (1) the making of a defamatory
statement; (2) publication of the defamatory material; and (3) a resulting special harm, unless the
statement is defamatory per se and therefore gives rise to presumptive special harm. L & D of
Oregon, Inc, v. Am. States Ins. Co.. 171 Or. App. 17, 22, 14 P.3d 617, 620 (2000); Nat'l Union
Fire Ins. Co. of Pittsburgh Pennsylvania v. Starplex Corp.. 220 Or. App. 560, 584, 188 P.3d 332,
347 (2008).
The Court assumes, without deciding, that Defendant can bring a claim of defamation
against Plaintiff even though Defendant admits that any allegedly defaming statements were
made by Plaintiffs attorneys, not by Plaintiff. See Bleeck v. Mangold. 92 Or. App. 200, 203, 757
P.2d 456, 458 (1988) (finding that an attorney who sent an allegedly defamatory letter to an
opposing party acted as his client’s agent). In addition, the Court finds that the statements were
published when they were made to Judge Jones’ courtroom deputy. Nevertheless, Defendant fails
to state a claim for defamation.
First, as this Court has already decided in this case, a statement to Judge Jones’
courtroom deputy suggesting that Defendant’s blog post constituted a threat is an opinion
statement protected by the First Amendment. See Milkovich v. Lorain Journal Co.. 497 U.S. 1,

11 - OPINION & ORDER

Excerpt I page 127

Case 3:15-cv-02401-HZ

Document 96

Filed 01/05/17

Page 12 of 18

42a

20 (1990) (statement of opinion relating to matters of public concern that do not contain a
provably false factual connotation will receive full constitutional protection); Obsidian Fin. Grp..
LLC v. Cox, 740 F.3d 1284, 1291-92 (9th Cir.) (“[P]ublic allegations that someone is involved in
crime generally are speech on a matter of public concern.”). The same protection applies to any
statement opining that Defendant is unstable.
Second, Defendant’s proposed counterclaim fails to allege any resulting special harm
from Plaintiffs statements. Defamation claims premised on an oral statement (slander) require
that a plaintiff prove either that the statement falls within one of the actionable per se categories
or that the statement caused the plaintiff special harm. L & D of Oregon. 171 Or. App. at 24, 14
P.3d at 617. Defendant seeks $1 million in consequential damages and $5 million in punitive
damages for this claim. However, there is no allegation in the defamation claim that Defendant
was harmed in any way. Construing Defendant’s claim liberally by considering facts alleged
elsewhere in the Proposed Third Amended Answer, Defendant alleges that the contact with
Judge Jones’ chambers caused Defendant emotional distress. See, e.g.. Third Am. Answer f 48.
Special harm for the purpose of a defamation claim, however, is “the loss of something having
an economic or pecuniary value, such as a failure to realize a reasonable expectation of gain.”
Nat'l Union Fire, 220 Or. App. at 586, 188 P.3d at 348 (citing Restatement (Second) of Torts. §
575, comment b). Allegations of suffering psychological and emotional distress, humiliation and
embarrassment are insufficient to allege a “special harm.” L & D of Oregon. 171 Or. App. at 28,
14 P.3d at 623.
Defendant also alleges that, to the extent the statements accused Defendant of a crime,
the statements are defamatory per se. However, as discussed above, the statements did not
accuse Defendant of a crime but, rather, offered an opinion as to the significance of Defendant’s

12 - OPINION & ORDER

Excerpt I page 128

Case 3:15-cv-02401-HZ

Document 96
43a

Filed 01/05/17

Page 13 of 18

blog post about Judge Jones. Therefore, Defendant fails to state a defamation claim because he
does not allege a special harm.
E. Abuse of Process and Malicious Prosecution
Defendant alleges the following:
As a Third and Separate Counterclaim, this Answering Defendant alleges that plaintiff is
engaged in harassment in the form of Abuse of Civil Process, pursuing the claims for his
benefit and designed [sic] to extort, coerce, and damage Rote financially for publishing a
blog critical of an arbitration involving the plaintiff.
Proposed Third Am. Answer U 42. Defendant further alleges that Plaintiff knows that his claims
are subject to arbitration and are not timely filed. Id. at H 43. According to Defendant, Plaintiff
has an ulterior motive of forcing Plaintiff to hire counsel to represent Corporate Defendants,
even though Plaintiff knows the corporations are inactive, hi at U 44.
Under Oregon law, the tort of abuse of process “is the perversion of a process that is
regular on its face to a purpose for which the process is not intended.” Columbia County v.
Sande, 175 Or. App. 400, 408 (2001). In other words, “[t]he tort involves the use of the process
as a club by which to extort something unrelated to the process from the other party.” Clausen v.
Carstens. 83 Or. App. 112, 118 (1986). To plead a claim of abuse of process, a plaintiff must
allege (1) an ulterior purpose, beyond malice, that is unrelated to the process and (2) a willful act
in the use of the process that is not proper in the regular conduct of the proceeding: Columbia
County, 175 Or. App. at 408; see also Hartley v. State Water Resources Dept.. 77 Or. App. 517,
522 (1986) (a defendant cannot be liable for abuse of process where he has “done nothing more
than carry out the process to its authorized conclusion, even though with bad intentions”).
Defendant’s claim fails. His description of Plaintiffs behavior does not constitute “the
use of the process that is not proper in the regular conduct of the proceeding.” Plaintiff has
brought claims against Defendant and Corporate Defendants. Plaintiffs claims were timely filed
13 - OPINION & ORDER

Excerpt I page 129

Case 3:15-cv-02401-HZ

Document 96
44a

Filed 01/05/17

Page 14 of 18

and Defendant waived his right to compel Plaintiff to arbitrate the claims. Further, there is no
evidence that Plaintiff engaged in this lawsuit for the ulterior purpose of forcing Defendant to
obtain counsel for Corporate Defendants. Therefore, Defendant fails to state a claim.
F. Intentional Infliction of Emotional Distress
Defendant alleges that as a result of Plaintiff s wrongful conduct, Defendant has suffered,
and will continue to suffer, mental anguish, emotional distress, and embarrassment. Proposed
Third Am. Answer U 48. Specifically, Defendant alleges:
While defendant is not easily distressed emotionally over litigation, watching the plaintiff
and plaintiff [sic] counsel posture one lie after another, attack his business ethics alleging
fraudulent billing practices with no proof whatsoever, destroy evidence without
accountability, submit false and unexamined evidence to an arbitrator privately, seek to
enlist the help of Judge Jones twice, engage in a host of other outrageous acts, and then
file a lawsuit when Rote exposes the corruption, one can only imagine that the otherwise
unflappable demeanor of the defendant has been tested beyond social acceptability.
Id, at H 49.
To state an IIED claim, Defendant must show that Plaintiff intended to inflict severe
emotional distress, Plaintiffs acts were the cause of Defendant’s severe emotional distress, and
Plaintiffs acts constituted an extraordinary transgression of the bounds of socially tolerable
conduct. McGantv v. Staudenraus. 321 Or. 532, 563, 901 P.2d 841, 849 (1995)). “Because proof
of intent is often indirect and evidence of psychic harm is usually self-serving, proof of this tort
largely turns on . .. whether a defendant's conduct is sufficiently outrageous.” House v. Hicks.
218 Or. App. 348, 358, 179P.3d 730, 736 (2008).
Whether the alleged conduct constitutes an extraordinary transgression of the bounds of
socially tolerable conduct is a question of law for the court. Harris v. Pameco Com.. 170 Or.
App. 164, 171, 12 P.3d 524, 529 (2000). In a 2008 case, the Oregon Court of Appeals explained
the following parameters of the tort:

14-OPINION & ORDER

Excerpt I page 130

Case 3:15-cv-02401-HZ

Document 96
45a

Filed 01/05/17

Page 15 of 18

A trial court plays a gatekeeper role in evaluating the viability of an IIED claim by
assessing the allegedly tortious conduct to determine whether it goes beyond the farthest
reaches of socially tolerable behavior and creates a jury question on liability.
* * *

As explained in the Restatement ffSecond) of Tortsl at § 46 comment d [ 1965]:
“Liability has been found only where the conduct has been so outrageous in character,
and so extreme in degree, as to go beyond all possible bounds of decency, and to be
regarded as atrocious, and utterly intolerable in a civilized community.”
House, 218 Or. App. at 358, 179 P.3d at 736 (internal quotation marks and citations omitted).
“Whether conduct is an extraordinary transgression is a fact-specific inquiry, to be
considered on a case-by-case basis, based on the totality of the circumstances.” Jd. Oregon law
identifies “several contextual factors that guide the court's classification of conduct as extreme
and outrageous.” Id. at 360, 179 P.3d at 737. The most important of these factors is “whether a
special relationship exists between a plaintiff and a defendant” such as employer-employee,
physician-patient, or government officer-citizen. Id. Courts are concerned with whether the
defendant’s relationship to the plaintiff‘imposes on the defendant a greater obligation to refrain
from subjecting the victim to abuse, fright, or shock than would be true in arm's-length
encounters among strangers.’” Id. (quoting McGanty, 321 Or. at 547-48, 901 P.2d at 851). Other
factors include whether the conduct was undertaken with an ulterior motive or to take advantage
of an unusually vulnerable individual. Id. The setting in which the conduct occurs, for example,
whether it occurred in a public venue or in an employment context, also bears on the degree of
its offensiveness. Id.
Here, there is no special relationship between Plaintiff and Defendant. While the parties
previously had an employment relationship, Defendant has not employed Plaintiff in many years.
See id. (absence of any special relationship is significant in finding no outrageous conduct).
Furthermore, to the extent the parties previously had a legal relationship, it was Defendant, as
15 - OPINION & ORDER

Excerpt I page 131

Case 3:15-cv-02401-HZ

Document 96
46a

Filed 01/05/17

Page 16 of 18

employer, who would have held the dominant position and would thus have a greater obligation
to refrain from subjecting Plaintiff to emotional distress. Id. (“[CJourts are more likely to
categorize conduct as outrageous when it is undertaken by the dominant party in a legal
relationship.”).
In addition, there is no allegation by Defendant that Plaintiffs conduct was motivated by
a desire to take advantage of an unusually vulnerable individual. To the contrary, Defendant
alleges that he “is not easily distressed emotionally over litigation” and he is generally
“unflappable.” Proposed Third Am. Answer ^ 49.
Instead, Defendant appears to base his claim on the assertion that Plaintiffs conduct was
undertaken with an ulterior motive to gain an advantage in litigation before another judge in this
District. Defendant argues in his Reply that “[i]t is reasonable to conclude that the plaintiff group
may have been disseminating this false information to a much broader group, not just to law
enforcement.” Def.’s Reply 5, ECF 91. Defendant does not submit any evidence to support this
assertion and the Court does not agree with Defendant that it would be reasonable to make such
an inference based on the evidence available. Plaintiffs counsel made the statements in private
to Judge Jones’ courtroom deputy and the stated purpose of the phone call was to warn Judge
Jones about a potential threat. These factors weigh against Defendant’s assertion of IIED. See
House, 218 Or. App. at 365, 179 P.3d at 740 (explaining that the “private and indirect character”
of a defendant’s conduct makes it less likely to be classified as outrageous). Furthermore, even if
some of the statements made to Judge Jones’ deputy were false, they were made “as part of an
“otherwise legitimate complaint” regarding Defendant’s blog post and merely “set out the
context of [Defendant’s] behavior.” See id. at 361, 364, 179 P.3d 730.

16 - OPINION & ORDER

Excerpt I page 132

Case 3:15-cv-02401-HZ

Document 96

Filed 01/05/17

Page 17 of 18

47a

In sum, there is no special relationship between Plaintiff and Defendant, Defendant is not
a particularly vulnerable individual, and there is no evidence that the actions were taken with an
ulterior motive. Even taking the alleged facts in the light most favorable to Plaintiff, no
reasonable factfinder would conclude that Plaintiffs actions rose to the level of socially
intolerable conduct. Defendant fails to state an IIED claim.
G. Aiding and Abetting
This Court previously dismissed Defendant’s “aiding and abetting” claim, finding no
support for the proposition that Oregon recognizes this as an independent tort and noting that, in
states that do recognize such a tort, the tort is predicated upon the existence of some tortious
conduct of other parties. See, e.g.. Saunders v. Superior Court. 27 Cal. App. 4th 832, 846, 33
Cal. Rptr. 2d 438, 446 (1994) (“Liability may also be imposed on one who aids and abets the
commission of an intentional tort if the person (a) knows the other's conduct constitutes a breach
of duty and gives substantial assistance or encouragement to the other to so act or (b) gives
substantial assistance to the other in accomplishing a tortious result and the person's own
conduct, separately considered, constitutes a breach of duty to the third person.”). Defendant
does not amend his aiding and abetting claim in any way. Because Defendant’s proposed
amended counterclaims fail to establish any tortious conduct of Plaintiff or anyone else, this
claim necessarily fails.
CONCLUSION
The Court denies Defendant Rote’s Motion to Dismiss for Lack of Jurisdiction [78],
Motion for Judicial Notice [80] and Motion to Amend [85]. Defendant is ordered to remove all
counterclaims from his Proposed Third Amended Answer and to submit the Third Amended

17-OPINION & ORDER

Excerpt I page 133

Case 3:15-cv-02401-HZ

Document 96

Filed 01/05/17

Page 18 of 18

48a

Answer, without any other changes, within 10 days of the date below. The Cleric is instructed to
strike ECF 86-4 from the record.
IT IS SO ORDERED.
Dated this

day of

v

, 2017.

MARGO A. HERNANDEZ
United States District Judge

18 - OPINION & ORDER

Excerpt I page 134

i

